DEFENDANT LIST SERVED JUNE 6. 2021

GOVERNOR DAVID IGE
CLARE E. CONNORS
NOLAN ESPINDA
SUZANNE CASE
BRUCES. ANDERSON
Represented by:
KENDALL J. MOSER
Office of the Attorney General
425 Queen Street, Suite 220
Honolulu, Hawaii 96813
808-586-1494
SERVED 6-7-21 VIA EMAIL TO:
Kendall.J.Moser@hawaii.gov
MITCH ROTH
PAUL FERREIRA
Represented by:
LAUREEN L. MARTIN
Office of the Corporation Counsel
101 Aupuni Street, Suite 325
Hilo, HI 96720
SERVED 6-7-2021 VIA EMAIL TO:
Laureen.Martin@hawaiicounty.gov
ALOHA GREEN HOLDINGS, INC
MANOA BOTANICALS
Represented by:
DENTONS US LLP
Candace H. Hough
1001 Bishop Street 18th Floor
Honolulu, HI 96813
808-524-1800
SERVED 6-7-21 VIA EMAIL TO:
candace.hough@dentons.com
TCG RETRO MARKET 1, LLC - CURE OAHU
HAWAIIAN ETHOS, LLC
MAUI WELLNESS GROUP LLC

025

PONO LIFE SCIENCES
Represented by:
KEITH K. KATO
Chee & Makham
1001 Bishop Street, Suite 1000
Honolulu, HI 96813

808-523-0111
SERVED 6-7-21 VIA EMAIL TO:
k.kato@cheemarkham.com
THE FOLLOWING NEVER RESPONDED TO 2 separate WAIVER OF SERVICES:
LAU OLA, LLC - BIG ISLAND GROWN
Agent Dylan Shropshire
P.O. Box 107
Pepeekeo, HI 96783
GREEN ALOHA LTD. - HAVE A HEART
Agent Justin Britt
4571 Emmalani Drive
Princeville, HI 96722
WILLIAM P. BARR
Attorney General United States
950 Pennsylvania Avenue, NW
Washington, DC 20530-0001

026

